No. 20-891
IN THE

AMERICAN AXLE & MANUFACTURING, INC.,
v.

Petitioner,

NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court
and that on this day, pursuant to Rule 29 of the Rules of this Court, I caused three
copies of the Brief in Opposition to be served upon the below-named counsel by thirdparty commercial carrier for delivery within three calendar days and caused an
electronic copy to be served upon the below-named counsel by e-mail. All parties
required to be served have been served.
Counsel for Petitioner:
Christopher A. Suarez
STEPTOE & JOHNSON LLP
1330 Connecticut Ave., NW
Washington, DC 20036
202.429.3000
csuarez@steptoe.com

James R. Nuttall
John L. Abramic
Katherine H. Johnson
Robert F. Kappers
STEPTOE & JOHNSON LLP
227 W. Monroe, Suite 4700
Chicago, Illinois 60606
312.577.1300
jnuttall@steptoe.com
jabramic@steptoe.com
kjohnson@steptoe.com
rkappers@steptoe.com

March 31, 2021
J. Michael Huget
HONIGMAN LLP
315 E. Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
(734) 418-4200
mhuget@honigman.com
Counsel for Respondents

